                                       A MESSAGE FROM THE
                                        INSPECTOR GENERAL
I am pleased to present this Semiannual Report to Congress on the
activities and accomplishments of the Nuclear Regulatory Commission
(NRC) Office of the Inspector General (OIG) from April 1, 2008, to
September 30, 2008.

Our work reflects the legislative mandate of the Inspector General Act,
which is to identify and prevent fraud, waste, and abuse through the conduct
of audits and investigations relating to NRC programs and operations.
The audits and investigations highlighted in this report demonstrate our
commitment to ensuring integrity and efficiency in NRC’s programs and
operations.

During this semiannual reporting period, we issued 11 program audit reports and analyzed
2 contract audit reports. As a result of this work, OIG made a number of recommendations to improve
the effective and efficient operation of NRC’s safety, security, and corporate management programs.
OIG also opened 17 investigations, and completed 31 cases. Eight of the open cases were referred
to the Department of Justice, and 25 allegations were referred to NRC management for action.

My office is dedicated to maintaining the highest possible standards of professionalism and quality
in its audits and investigations. I would like to acknowledge our auditors, investigators, and support
staff for their superior work and commitment to the mission of our office.

Finally, the success of the NRC OIG would not be possible without the collaborative work between
my staff and agency managers to address OIG findings and implement the recommendations made
by my office. I wish to thank them for their dedication and support, and I look forward to their
continued cooperation as we work together to ensure the integrity of agency operations.




Hubert T. Bell
Inspector General




                                                                                                    i
                                                                     April 1, 2008 – September 30, 2008
ii                          Reactor Refueling Operation

NRC OIG Semiannual Report
                                                                                                CONTENTS
Highlights ...................................................................................................................v
OIG Organization and Activities . ..........................................................................1
	     NRC’s Mission .....................................................................................................1
	     OIG Mission and Strategies ...............................................................................2
		          Inspector General History ...........................................................................2
		          OIG Mission ..................................................................................................2
		          Audit Program ...............................................................................................3
		          Investigative Program ...................................................................................4
	     OIG General Counsel Activities . ......................................................................5
		          Regulatory Review ........................................................................................5
	     Other Activities.....................................................................................................7
		          Support of the IG Community in Training Presentation..........................7
		          OIG Senior Official Retires...........................................................................9
Audits .......................................................................................................................10
	     Audit Summaries . .............................................................................................10
	     Audits In Progress .............................................................................................22
Investigations ...........................................................................................................26
	     Investigative Case Summaries .........................................................................26
Statistical Summary of OIG Accomplishments .................................................33
	     Investigative Statistics .......................................................................................33
	     Audit Listings . ...................................................................................................35
	     Audit Resolution Activities ..............................................................................37
Abbreviations and Acronyms . ..............................................................................40
Reporting Requirements ........................................................................................41




                                                                                                                                   iii
                                                                                             April 1, 2008 – September 30, 2008
iv                          Limerick Generating Station, near Philadelphia, PA
NRC OIG Semiannual Report
                                                                    HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 NRC receives Freedom Support Act funds from the U.S. Agency for Inter-
   national Development (USAID) to support provisions of nuclear regulatory
   safety and security assistance to the regulatory authorities of Armenia, Georgia,
   Kazakhstan, Russia, and Ukraine.  These funds support activities that include
   strengthening regulatory oversight of the startup, operation, shutdown, and
   decommissioning of Soviet-designed nuclear power plants; the safe and secure
   use of radioactive materials; and accounting for and protection of nuclear
   materials. The audit objectives were to determine the adequacy of manage-
   ment controls over the use of USAID funds and if corrective actions from a
   previous audit were implemented.
•	 NRC’s policy is to provide training that improves employees’ organizational
   performance in achieving the agency’s mission and goals. The Office of Human
   Resources is responsible for planning and implementing agencywide training
   and develops policies and programs designed to establish, maintain, and
   enhance regulatory, technical, professional, and leadership skills. The objective
   of this evaluation was to determine the effectiveness of the agency’s training
   and development program to meet current and future needs.
•	 NRC’s enforcement jurisdiction is drawn from the Atomic Energy Act of
   1954, as amended, and the Energy Reorganization Act of 1974, as amended.
   In recognition that violations occur in a variety of activities and have varying
   levels of significance, the Commission set out to create an enforcement frame-
   work with graduated sanctions to reflect this diversity. Violations are identi-
   fied through inspections and investigations. All violations are subject to civil
   enforcement action and may also be subject to criminal prosecution. The
   objectives of this audit were to determine how NRC assesses the significance
   of violations and the level of enforcement action to be taken.
•	 The Federal Information Security Management Act outlines information
   security management requirements for agencies, including the requirement
   for an annual review and annual independent assessment by agency inspec-
   tors general. The annual assessments provide agencies with the information

                                                                                                    v
                                                                      April 1, 2008 – September 30, 2008
                          needed to determine the effectiveness of overall security programs and to
                          develop strategies and best practices for improving information security.
                   •	 Laptops used at NRC are either (1) connected to the NRC local area network
                      (LAN) or (2) used as standalone systems. Some of the laptops are used to
                      process safeguards and/or classified information. These are considered “listed
                      systems.” Laptops connected to the NRC LAN are protected by the LAN’s
                      security controls. The audit objectives were to evaluate the effectiveness of
                      NRC’s security policies for laptop computers.

                   INVESTIGATIONS
                   •	 OIG completed an investigation into claims by an NRC applicant who had
                      submitted a request for a design certification for a new boiling water reactor.
                      The applicant alleged that during an NRC audit of the applicant’s software
                      quality assurance program, an NRC audit contractor attempted to solicit work
                      from the applicant.
                   •	 OIG completed two separate investigations involving NRC material licensees
                      that falsely certified themselves as small business entities to receive reduced
                      material license fees.
                   •	 OIG completed an investigation into concerns raised regarding the extent of
                      the NRC staff review of license renewal applications. These concerns were
                      raised by an OIG audit report1 issued in September 2007. The OIG audit
                      report identified cases where review documents prepared by NRC contained
                      nearly word-for-word repetition of renewal application text without attribu-
                      tion to the applicant.
                   •	 OIG completed an Event Inquiry in response to concerns that NRC staff
                      mishandled a security related allegation pertaining to inattentive security
                      officers at Peach Bottom Atomic Power Station.
                   •	 OIG conducted an investigation into concerns that NRC staff may have assisted
                      or redirected a composite adversary force during a force-on-force security
                      training exercise at Sequoyah Nuclear Power Plant in a manner that affected
                      the outcome of the exercise.




vi
                   1
                       Audit of NRC’s License Renewal Program, OIG-07-A-15, September 6, 2007



NRC OIG Semiannual Report
   OIG ORGANIZATION AND ACTIVITIES
NRC’S MISSION
NRC was formed in 1975, in accordance with the Energy Reorganization Act
of 1974, to regulate the various commercial and institutional uses of nuclear
materials. The agency succeeded the Atomic Energy
Commission, which previously had responsibility for
both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of
byproduct, source, and special nuclear materials to
ensure adequate protection of public health and safety,
promote the common defense and security, and protect
the environment. NRC’s regulatory mission covers
three main areas:

•	 Reactors - Commercial reactors that generate
   electric power and research and test reactors used for research, testing, and
   training.

•	 Materials - Uses of nuclear materials in medical, industrial, and academic
   settings and facilities that produce nuclear fuel.

•	 Waste - Transportation, storage, and disposal of nuclear materials and waste,
   and decommissioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses
for nuclear facilities and users of nuclear materials, and (3) inspect facilities and
users of nuclear materials to ensure compliance with the requirements. These
regulatory functions relate both to nuclear power plants and other uses of nuclear
materials – like nuclear medicine programs at hospitals, academic activities at
educational institutions, research, and such industrial applications as gauges and
testing equipment.

The NRC maintains a current Web site and a public document room in Rockville,
Maryland (NRC headquarters), and holds public hearings, public meetings in local
areas and at NRC offices, and discussions with individuals and organizations.

                                                                                                    1
                                                                       April 1, 2008 – September 30, 2008
                   OIG MISSION AND STRATEGIES
                   Inspector General History

                   In the 1970s, Government scandals, oil shortages, and stories of corruption covered
                   by newspapers, television, and radio stations took a toll on the American public’s
                   faith in its Government.  The U.S. Congress knew it had to take action to restore
                   the public’s trust. It had to increase oversight of Federal programs and opera-
                   tions. It had to create a mechanism to evaluate the effectiveness of Government
                   programs. And, it had to provide an independent voice for economy, efficiency,
                   and effectiveness within the Federal Government that would earn and maintain
                   the trust of the American people.

                   In response, President Jimmy Carter in 1978 signed into law the landmark
                   legislation known as the Inspector General Act (IG Act). The IG Act created
                   independent Inspectors General (IG), who would protect the integrity of Govern-
                   ment; improve program efficiency and effectiveness; prevent and detect fraud,
                   waste, and abuse in Federal agencies; and keep agency heads, Congress, and the
                   American people fully and currently informed of the findings of IG work.

                   Today, the IG concept is a proven success. The IGs continue to deliver significant
                   benefits to our Nation. Thanks to IG audits and inspections, billions of dollars
                   have been returned to the Federal Government or have been better spent based
                   on recommendations identified through those audits and inspections. IG inves-
                   tigations have also contributed to the prosecution of thousands of wrongdoers.
                   In addition, the IG concept of good governance, accountability, and monetary
                   recoveries encourages foreign governments to seek our advice, with the goal of
                   replicating the basic IG principles in their own governments.

                   OIG Mission

                   NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
                   with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
                   dently and objectively conduct and supervise audits and investigations relating
                   to NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;
                   and (3) promote economy, efficiency, and effectiveness in NRC programs and
                   operations.


2
NRC OIG Semiannual Report
OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals which generally align
with NRC’s mission and goals:

1.	 Strengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	 Enhance NRC’s efforts to increase security in response to an evolving threat
    environment.

3.	 Increase the economy, efficiency, and effectiveness with which NRC manages
    and exercises stewardship over its resources.

Audit Program

The OIG Audit Program covers the management and financial operations; economy
or efficiency with which an organization, program, or function is managed; and
program results achieved. For this program, auditors assess the degree to which
an organization complies with laws, regulations, and internal policies in carrying
out programs, and they test program effectiveness as well as the accuracy and
reliability of financial statements. The overall objective of an audit is to identify
ways to enhance agency operations and promote greater economy and efficiency.
Audits comprise four phases:

•	 Survey phase - An initial phase of the audit process is used to gather informa-
   tion, without detailed verification, on the agency’s organization, programs,
   activities, and functions. An assessment of vulnerable areas determines whether
   further review is needed.

•	 Verification phase - Detailed information is obtained to verify findings and
   support conclusions and recommendations.

                                                                                                    3
                                                                       April 1, 2008 – September 30, 2008
                   •	 Reporting phase - The auditors present the information, findings, conclusions,
                      and recommendations that are supported by the evidence gathered during the
                      survey and verification phases.  Exit conferences are held with management
                      officials to obtain their views on issues in the draft audit report. Comments
                      from the exit conferences are presented in the published audit report, as
                      appropriate. Formal written comments are included in their entirety as an
                      appendix in the published audit report.

                   •	 Resolution phase - Positive change results from the resolution process in
                      which management takes action to improve operations based on the recom-
                      mendations in the published audit report. Management actions are monitored
                      until final action is taken on all recommendations. When management and
                      OIG cannot agree on the actions needed to correct a problem identified in
                      an audit report, the issue can be taken to the Chairman for resolution.

                   Each September, OIG issues an Annual Plan that summarizes the audits planned
                   for the coming Fiscal Year (FY).  Unanticipated high priority issues may arise that
                   generate audits not listed in the Annual Plan. OIG audit staff continually monitor
                   specific issues areas to strengthen OIG’s internal coordination and overall planning
                   process.  Under the OIG Issue Area Monitor (IAM) program, staff designated as
                   IAMs are assigned responsibility for keeping abreast of major agency programs
                   and activities. The broad IAM areas address nuclear reactors, nuclear materials,
                   nuclear waste, international programs, security, information management, and
                   financial management and administrative programs.

                   Investigative Program

                   OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
                   NRC includes investigating possible violations of criminal statutes relating to NRC
                   programs and activities, investigating misconduct by NRC employees, interfacing
                   with the Department of Justice on OIG-related criminal matters, and coordinating
                   investigations and other OIG initiatives with Federal, State, and local investigative
                   agencies and other OIGs. Investigations may be initiated as a result of allegations
                   or referrals from private citizens; licensee employees; NRC employees; Congress;
                   other Federal, State, and local law enforcement agencies; OIG audits; the OIG
                   Hotline; and IG initiatives directed at areas bearing a high potential for fraud,
                   waste, and abuse.


4
NRC OIG Semiannual Report
Because NRC’s mission is to protect the health and safety of the public, one of the
Investigation unit’s main focus and use of resources is investigations of alleged
conduct by NRC staff that could adversely impact the agency’s handling of matters
related to health and safety. These investigations may include allegations of:

•	 Misconduct by high ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and
   candidly and to openly seek and consider the public’s input during the regu-
   latory process.

•	 Conflict of interest by NRC employees with NRC contractors and licensees
   involving such matters as promises of future employment for favorable or
   inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A
primary focus is electronic-related fraud in the business environment. OIG is
committed to improving the security of this constantly changing electronic busi-
ness environment by investigating unauthorized intrusions and computer-related
fraud, and by conducting computer forensic examinations.  Other proactive initia-
tives focus on determining instances of procurement fraud, theft of property,
Government credit card abuse, and fraud in Federal programs.

OIG GENERAL COUNSEL ACTIVITIES
Regulatory Review

Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG
reviews existing and proposed legislation, regulations, policy, and implementing


                                                                                                   5
                                                                      April 1, 2008 – September 30, 2008
                   Management Directives (MD), and makes recommendations to the agency
                   concerning their impact on the economy and efficiency of agency programs and
                   operations.

                   It is important to emphasize that OIG comments in regulatory review are an objec-
                   tive analysis of the language of proposed agency statutes, directives, regulations,
                   and policies to identify vulnerabilities potentially resulting from these agency
                   documents. Regulatory review is intended to provide assistance and guidance
                   to the agency prior to the concurrence process to avoid formal implementation
                   of potentially flawed documents. OIG does not concur or object to the agency
                   actions reflected in the regulatory documents, but rather offers comments and
                   requests responsive action within specified time frames.

                   From April 1, 2008, through September 30, 2008, OIG reviewed more than 265
                   agency documents, including approximately 150 Commission papers (SECYs)
                   and Staff Requirements Memoranda and 115 Federal Register Notices, regulatory
                   actions, and statutes.

                   To effectively track the agency’s response to regulatory review comments, OIG
                   requests written replies to its comments within 90 days, with either a substantive
                   reply or status of issues raised.

                   During this reporting period, the following significant comment was provided
                   to the agency and is summarized below.

                        Draft Management Directive and Handbook 6.4, Generic Issues Program,
                        was initiated to implement changes to that program incorporating prin-
                        ciples reflected in SECY-07-0022, Status Report on Proposed Improvements
                        to the Generic Issues Program. The changes focused on ensuring timeliness
                        of issue resolution, clarifying roles and responsibilities, increasing stake-
                        holder participation, and establishing clear interfaces between the Generic
                        Issues Program (GIP) and other program office processes and activities, and
                        assuring that only issues that cannot be handled by other regulatory offices
                        and programs are addressed under the GIP. OIG found that the directive
                        and handbook adequately addressed the major issues related to this topic.
                        The areas identified for additional clarification included further definitions
                        and direction as to whether generic issues may be submitted confidentially.
                        OIG provided additional guidance regarding the adequacy of the metrics

6
NRC OIG Semiannual Report
     or procedures to be employed for monitoring the ultimate resolution of
     underlying generic issues to avoid recurrence of the issues after regulatory
     action has been taken.

In addition, two draft directives, MD 7.1 and MD 7.2, reviewed during this period
were issued by the agency General Counsel to comply with the Comprehensive
Five Year Plan to Update References, clarify certain legal standards and procedures
within them, and reformat the documents in accordance with agency standard-
ized templates.

     MD 7.1, Tort Claims Against the United States, is intended to establish agency
     procedures for acting on tort claims filed against the United States under the
     Federal Tort Claims Act. These generally include suits for damage or losses
     caused by the negligent or wrongful act or omission of any NRC employee
     while acting within the scope of his/her office or employment. The updated
     draft document provided comprehensive direction on the major issues related
     to this topic. The OIG comments suggested inclusion of guidance related to
     referral to the Inspector General in cases where IG investigation would be
     appropriate and addition of the IG Act as a reference in the document.

     MD 7.2, Claims for Personal Property Loss or Damage, is a guide intended to
     establish procedures to cover the settlement and payment of claims for loss
     or damage to personal property of employees incident to their services with
     NRC, under specified statutes. OIG suggested inclusion of OIG jurisdiction
     and the IG Act as a reference within the document, and information on the
     referral of claims to the appropriate prosecuting authority. OIG’s comments
     added more specific direction regarding authority to make determinations
     of fraud and consequences of fraudulent claims.

Finally, the agency provided responsive comments to an earlier issued comment
and followed up with formal discussions on one commentary.

OTHER ACTIVITIES
Support of the IG Community in Training and Presentations

The Attorney General guidelines for statutory law enforcement authority for IG
community 1811 special agents require periodic training on specified legal issues.

                                                                                                   7
The Inspector General Academy, part of the Federal Law Enforcement Training


                                                                      April 1, 2008 – September 30, 2008
                   Center (FLETC), was tasked with formulating the syllabus for the training and
                   identification of appropriate teaching staff. The NRC OIG General Counsel,
                   Maryann Grodin, participated in a taskforce of attorneys from several IG offices
                   that constructed a model 3-hour course and participated in training a cadre of
                   attorney-trainers. The pilot class was completed successfully and this module is
                   scheduled to be included in future refresher training for all IG agents.

                   The Council of Counsels to Inspectors General sponsors annual training for law
                   students working as summer interns in IG offices in the Washington, DC, area.
                   Ms. Grodin provided the 1-hour presentation on the History and Concept of the
                   Inspector General for this year’s interns.

                   Issues related to privacy in IG investigations were part of a 2-day program, the
                   Federal Law Enforcement Legal Advisors Conference, sponsored by the Drug
                   Enforcement Administration, the Federal Bureau of Investigation, and FLETC.
                   Ms. Grodin served on a panel, along with Richard Reback, IG Counsel for the
                   Department of Homeland Security, and Cedric Campbell, Assistant Counsel for
                   the National Aeronautics and Space Administration IG. Ms. Grodin’s presentation
                   focused on statutes requiring and prohibiting disclosure of investigative informa-
                   tion and discussed case law that illustrated the results of failure to comply with
                   statutory and regulatory privacy requirements.

                   In addition, Ms. Grodin was invited to serve as a guest speaker for the annual
                   Space and Warfare Command Inspector General Conference. During that 3-day
                   meeting, she provided a presentation to more than 70 IG investigators, auditors,
                   and attorneys from a variety of field offices and with varying experience levels.  
                   Her presentation covered three major areas, the IG concept and structure, privacy
                   issues, and witness interview concerns. During her lecture, Ms. Grodin related
                   both the statutory and regulatory authority and standards applicable to each of
                   the topics, and illustrated each discussion area with examples from practice and
                   evolving case law.




8
NRC OIG Semiannual Report
OIG Senior Official Retires

George A. Mulley, Jr., Senior Level Assistant for Inves-
tigative Operations, retired from the NRC OIG after
nearly 26 years with the office. Mr. Mulley was a vital
asset to both the OIG and NRC from October 18, 1982,
when he joined the NRC’s Office of the Inspector and
Auditor, the predecessor office to the OIG, until his
retirement from OIG on August 30, 2008. During this
time, Mr. Mulley held a series of leadership positions,
demonstrating rigorous and steadfast commitment to
NRC’s public safety mission by conducting or overseeing
investigations and issuing reports identifying significant
issues concerning NRC’s regulatory oversight of the
Nation’s nuclear industry.                                   George A. Mulley, Jr.

During his tenure, Mr. Mulley maintained the high regard of senior NRC managers
for his understanding of technical and regulatory issues, and established an excel-
lent rapport with the nuclear industry, intervener groups, and Congressional
staff members.

His commitment to excellence, tireless efforts, and dedication to duty will
be missed.




                                                                                                    9
                                                                       April 1, 2008 – September 30, 2008
AUDITS
                   To help the agency improve its effectiveness and efficiency during this period, OIG
                   completed 11 financial and performance audits or evaluations, 7 of which are
                   summarized here, that resulted in numerous recommendations to NRC manage-
                   ment. OIG also analyzed 2 contract audit reports.

                   AUDIT SUMMARIES
                   Audit of NRC’s USAID-Funded Activities

                   OIG Strategic Goal: Corporate Management

                  NRC receives Freedom Support Act (FSA) funds from the USAID to support
                   provisions of nuclear regulatory safety and security assistance to the regulatory
                   authorities of Armenia, Georgia, Kazakhstan, Russia, and Ukraine.  These funds
                  support activities that include strengthening regulatory oversight of the startup,
                                                                  operation, shutdown, and decom-
                                                                  missioning of Soviet-designed
                                                                  nuclear power plants; the safe and
                RUSSIA
                                                                  secure use of radioactive materials;
    UKRAINE
                                    KAZAKHSTAN
                                                                  and accounting for and protection
                                                                  of nuclear materials.

                                 UZBEKISTAN
                                                                      The Office of International
           GEORGIA                              KYRGYZSTAN            Programs has responsibility for
             ARMENIA     AZERBAIJAN
         TURKEY                    TURKMENISTAN  TAJIKISTAN
                                                                CHINA NRC’s use of FSA funds. This
                                                                      responsibility includes coordina-
              SYRIA
                                            AFGHANISTAN               tion within NRC, with other U.S.
                                 IRAN
                    IRAQ                                    INDIA
                                                     PAKISTAN
                                                                      Government agencies involved
                                                                      with assistance activities, and
Map highlights former Soviet Union countries that receive             with other international donors.
FSA funds from NRC.                                                   For FY 1992 through FY 2007,
                                                                      USAID provided NRC approxi-
                   mately $53,315,000 in FSA funding for assistance programs to improve near-term
                   safety of Soviet designed reactors and enhance regulatory oversight of radioactive
                   sources in Armenia, Georgia, Kazakhstan, Russia, and Ukraine.  The audit objectives
                   were to determine the adequacy of management controls over the use of USAID
                   funds and if corrective actions from a previous audit were implemented.


10
NRC OIG Semiannual Report
Audit Results:

While the Memoranda of Agreement between USAID and NRC specify the dollar
amounts allocated to each of five Former Soviet Union countries, the methodology
used by NRC to pay individual contract invoices resulted in a miscategoriza-
tion of approximately $154,000 of FSA funds on the agency’s official accounting
records for the audit period. This condition is the result of inadequate contract
provisions, noncompliance with agency
policy, and undocumented and incorrect                   FSA SUPPORT TO NRC
office procedures.  Unless corrected, this   FISCAL YEARS 1992 THROUGH 2007 FUNDS
                                                            (Dollars in Thousands)
payment practice could result in NRC
overspending the FSA amounts allocated                                     Armenia,
by USAID to specific countries.                                             $6,965
                                                  Ukraine,
                                                  $21,583                              Georgia, $220
U.S. Government Accountability Office
and agency policies require that manage-                                                       Kazakhstan,
                                                                                                 $7,020
ment provide timely review and approval
of transactions. However, NRC did not
process Department of Energy labora-
tory agreement transactions within the                                    Russia,
required timeframe because the agency                                     $17,527
is not following existing policy and lacks
quality controls involving supervisory review. Without adherence to agency policy
and quality controls regarding transaction processing, the potential for improper
payments is increased. (Addresses Management Challenge #7)

Evaluation of NRC’s Training and Development Program

OIG Strategic Goal: Corporate Management

NRC’s policy is to provide training that improves employees’ organizational
performance in achieving the agency’s mission and goals. The Office of Human
Resources (HR) is responsible for planning and implementing agencywide training
and develops policies and programs designed to establish, maintain, and enhance
regulatory, technical, professional, and leadership skills. Formal in-house training
provided by HR includes all training developed and sponsored by the Professional
Development Center in Bethesda, Maryland, and the Technical Training Center
in Chattanooga, Tennessee.  In addition, NRC uses external training programs
to augment the training provided in-house.
                                                                                                  11
                                                                       April 1, 2008 – September 30, 2008
                   The training program is challenged by a planned significant increase in staff. By
                   2009, the agency expects to increase the number of staff by 600.

                   The objective of this evaluation was to determine the effectiveness of the agency’s
                   training and development program to meet current and future needs.

                   Evaluation Results:

                   The evaluation team reviewed existing reports on the Training and Development
                   Program and conducted qualitative research consisting of interviews with HR
                   staff members, agency employees, managers, and executives.  The evaluation
                   disclosed that:

                   •	 Efforts to maintain training documents, track changes, and control current
                      versions are not consistent across all HR branches. Inconsistent and incom-
                      plete content management practices and tools have hampered the ability to
                      manage and control course content. The inability to consistently manage and
                      control content impacts the ability to provide effective and relevant training
                      and development programs.

                   •	 Regional offices have difficulties in scheduling new and current employees
                      for training. Employees’ inability to schedule training in a timely fashion
                      has delayed the acquisition of skills needed to perform their jobs and meet
                      qualification requirements.

                   •	 HR has limited ability to demonstrate the impact of its Training and Develop-
                      ment Program on NRC’s mission using current performance measures. Without
                      effective performance metrics, HR is unable to demonstrate its contribution
                      to NRC’s mission and risks future support and funding.

                   •	 Current evaluation strategies are limited in their ability to demonstrate the
                      effectiveness of training. Without a strategy that standardizes the training
                      evaluation procedure and metrics, NRC cannot accurately measure and monitor
                      its achievement of goals.

                   •	 HR’s continued reliance on the traditional classroom as the primary delivery
                      method for training is being strained by an increasing number of students as
                      well as new training needs. HR has not developed an e-learning strategy or


12
                      implementation plan to maximize the benefits of this investment and ensure


NRC OIG Semiannual Report
    it is meeting the agency’s most pressing training needs. HR staff is strained to
    meet all of the training needs in the traditional classroom with its current staff
    and facility resources, but additional funding to support e-learning initiatives
    may be difficult to obtain without a defined strategy and implementation plan.

•	 In order to move into other forms of training delivery, HR will need to enhance
   or supplement the skill sets of its staff. HR staff noted that there are limited
   skills and resources for the development and deployment of e-learning among
   the current staff. If NRC plans to implement more e-learning solutions,
   HR will need to find ways to close the e-learning skill gaps—either through
   training, hiring, or outsourcing. Attempting to develop effective e-learning
   programs without the necessary skills can lead to staff frustration and ineffective
   learning opportunities for employees. (Addresses Management Challenge #8)

Audit of NRC’s Premium Class Travel

OIG Strategic Goal: Corporate Management

NRC is required to follow the Federal Travel Regula-
tions (FTR) for all travel taken for Government business.
The FTR, issued by the General Services Administration,
implements statutory and Office of Management and
Budget (OMB) requirements and policies for most Federal civilian employees and
others authorized to travel at the Government’s expense.  OMB’s policy related to
travel is that taxpayers should not pay more than necessary to transport Govern-
ment employees and officials. Consistent with this principle, the FTR states that,
with limited exceptions, travelers must use coach class accommodations for both
domestic and international travel.

The objectives of the audit were to determine if (1) travel costs associated with
premium air travel (i.e., per diem) are properly authorized, justified, and documented
and (2) premium air travel is properly authorized, justified, and documented.

Audit Results:

NRC generally complied with FTR per diem requirements for trips involving
premium travel during the time period reviewed. Additionally, during this time
period, NRC made significant improvements in processing travel vouchers.

                                                                                                 13
                                                                        April 1, 2008 – September 30, 2008
                   However, despite Federal and agency policies requiring that premium air travel
                   be used only when warranted, approximately 50 percent of the premium air
                   travel taken by NRC employees, between October 1, 2006, and March 31, 2008,
                   was inappropriately authorized, justified, and/or documented. Additionally,
                   NRC did not fully comply with OMB guidance with regard to the definition of a
                   rest period. Further, NRC’s premium travel approval process for the Chairman’s
                   travel differs from other Federal commissions. These problems occurred because
                   NRC premium air travel guidance is inconsistent, unclear, and misleading to
                   employees. The absence of proper controls over the premium air travel program
                   resulted in NRC overspending approximately $104,000 on unjustified premium
                   travel during the 18-month period. With improved controls over the process,
                   NRC would have been able to put these funds to better use. (Addresses Manage-
                   ment Challenge #7)

                   Audit of NRC’s Enforcement Program

                   OIG Strategic Goal: Safety

                   NRC’s enforcement jurisdiction is drawn from the Atomic Energy Act of 1954,
                   as amended, and the Energy Reorganization Act of 1974, as amended. In recog-
                   nition that violations occur in a variety of activities and have varying levels of
                   significance, the Commission set out to create an enforcement framework with
                   graduated sanctions to reflect this diversity. The Commission’s first public state-
                   ment of policy on enforcement (the first Enforcement Policy) was published in
                   1980. Although the policy statement has changed several times, two goals of
                   the enforcement program remain unchanged: to emphasize the importance of
                   compliance with regulatory requirements and to encourage prompt identification
                   and prompt, comprehensive correction of violations. The enforcement program
                   is also intended to meet the agency’s performance goals.

                   Violations are identified through inspections and investigations. All violations are
                   subject to civil enforcement action and may also be subject to criminal prosecu-
                   tion. After an apparent violation is identified, it is assessed in accordance with the
                   Commission’s Enforcement Policy. Because the policy statement is not a regula-
                   tion, the Commission may deviate from the Enforcement Policy as appropriate
                   under the circumstances of a particular case.



14
NRC OIG Semiannual Report
The audit objectives were to determine how NRC assesses the significance of
violations and the level of enforcement action to be taken.

Audit Results:

Enforcement is a vital regulatory activity and NRC expects consistent agencywide
implementation of its Enforcement Program. However, the agency’s four regional
offices inconsistently implement the program in ways that can significantly impact
the enforcement process. These differences occur because the agency has not
issued clear and comprehensive guidance
to facilitate program consistency. Regional                      HOW NRC REGULATES
inconsistencies in Enforcement Program
implementation can leave agency enforce-
ment decisions vulnerable to challenge,                            Regulations and Guidance
                                                                   • Rulemaking

potentially compromising public confidence                         • Guidance Development
                                                                   • Generic Communications

in NRC’s Enforcement Program.                                      • Standards Development




Furthermore, although NRC staff need                                                                 Licensing,
                                                     Operational                                  Decommissioning
complete and reliable enforcement infor-
                                                                       Support for Decisions
                                                     Experience                                    and Certification
                                                                        • Research Activities

mation for decisionmaking and reporting          • Events Assessment
                                                 • Generic Issues
                                                                        • Advisory Activities
                                                                        • Adjudication
                                                                                                  • Licensing
                                                                                                  • Decommissioning

purposes, complete and reliable enforce-                                                          • Certification


ment data is not readily available. Data avail-
ability and reliability issues exist because                                  Oversight
                                                                     • Inspection
NRC has not (1) defined systematic data                              • Performance Assessment
                                                                     • Enforcement
collection requirements regarding non-                               • Allegations
                                                                     • Investigations
escalated enforcement activity for other
than the reactor program or (2) instituted
a quality assurance process over non-escalated enforcement data used for reporting
purposes. Without complete and reliable information, enforcement decision-
makers cannot ensure appropriate processing of enforcement issues, and staff
may miss opportunities to identify precedents or trends that would be useful in
guiding appropriate enforcement responses. Furthermore, the agency cannot
ensure it is reporting accurately on Enforcement Program activity. (Addresses
Management Challenges #1 and #3)




                                                                                                          15
                                                                              April 1, 2008 – September 30, 2008
                   Independent Evaluation of NRC’s Implementation of the Federal Infor-
                   mation Security Management Act for Fiscal Year 2008

                   OIG Strategic Goal: Security

                   The Federal Information Security Management Act (FISMA) was enacted on
                   December 17, 2002. FISMA permanently reauthorized the framework laid out in
                   the Government Information Security Reform Act, which expired in November
                   2002. FISMA outlines the information security management requirements for
                   agencies, including the requirement for an annual review and annual indepen-
                   dent assessment by agency inspectors general. In addition, FISMA includes new
                   provisions such as the development of minimum standards for agency systems,
                   aimed at further strengthening the security of Federal Government information
                   and information systems. The annual assessments provide agencies with the infor-
                   mation needed to determine the effectiveness of overall security programs and to
                   develop strategies and best practices for improving information security.

                   The objectives of this evaluation were to evaluate (1) the adequacy of NRC’s
                   information security programs and practices for NRC major applications and
                   general support systems of record for FY 2008, (2) the effectiveness of agency
                   information security control techniques, and (3) the implementation of NRC’s
                   corrective action plan created as a result of the 2007 FISMA program review.

                   Evaluation Results:

                   Over the past 6 years, NRC has made improvements to its information system
                   security program and continues to make progress in implementing the recom-
                   mendations resulting from previous FISMA evaluations. In order to meet FISMA
                   requirements as they relate to information technology (IT) security, the Commis-
                   sion, on November 14, 2007, approved the establishment of the Computer Security
                   Office.  The new office reports to the Deputy Executive Director for Informa-
                   tion Services/Chief Information Officer and is headed by the Chief Information
                   Security Officer.

                   Two significant deficiencies, which were identified in the FY 2007 FISMA inde-
                   pendent evaluation, were addressed in FY 2008.



16
NRC OIG Semiannual Report
In addition to making significant progress on the two significant deficiencies
identified in FY 2007, the agency has accomplished the following since the FY
2007 FISMA independent evaluation:

•	 All major applications and general support systems have been categorized in
   accordance with Federal Information Processing Standards Publication 199,
   Standards for Security Categorization of Federal Information and Information
   Systems.

•	 The agency completed annual security control testing for all agency systems
   and for all contractor systems for which NRC has direct oversight.

•	 The agency completed or updated security plans for 14 of the agency’s 28
   operational systems and for all contractor systems for which NRC has direct
   oversight.

•	 The agency has made progress in implementing the provisions of OMB
   Memorandum M-07-16, Safeguarding Against and Responding to the Breach
   of Personally Identifiable Information (PII).  For example, on September 19,
   2007, NRC issued the NRC Personally Identifiable Information Breach Policy
   and the NRC Plan to Eliminate the Unnecessary Collection and Use of Social
   Security Numbers.

While the agency has made significant improvements in its information system
security program and has made progress in implementing the recommendations
resulting from previous FISMA evaluations, the independent evaluation identi-
fied four information system security program weaknesses.

•	 The NRC inventory does not identify interfaces between systems.

•	 The quality of the agency’s plans of action and milestones needs improve-
   ment.

•	 Not all Windows XP and Vista systems have implemented Federal Desktop
   Core Configuration security settings.

•	 The agency lacks procedures for ensuring employees with significant IT
   security responsibilities receive security training. (Addresses Management
   Challenge #2)

                                                                                           17
                                                                  April 1, 2008 – September 30, 2008
                         Audit of NRC’s Laptop Management

                         OIG Strategic Goal: Security

                         The NRC uses more than 1,550 laptop computers in its day-to-day operations.
                         NRC owns, manages, and maintains approximately 85 percent of this laptop
                         inventory, or approximately 1,300 laptops.  The Office of Information Services
                         (OIS), Infrastructure and Computer Operation Division (ICOD), is responsible
                         for developing and implementing policies, standards, and configurations to maxi-
                         mize functionality, support, and security for laptops. Within ICOD, the Network
                         Operations and Customer Services Branch is responsible for asset management
                         of laptops. Although OIS has responsibility for issuing policies, standards, and
                         configurations related to agency-owned laptops, individual offices are account-
                         able for the immediate oversight of their assigned laptops, including management
                         and maintenance.

                                                                                           Laptops used at NRC are
             LAPTOPS MISSING SECURITY CONTROLS                                             either (1) connected to the
                                  (Sample = 49)
                                                                                           NRC LAN or (2) used as
                                                                                           standalone systems. Some of
      Outdated Virus Protection                                                       39
                                                                                           the laptops are used to process
    Outdated Operating System                        14                                    safeguards and/or classi-
            No Warning Banner                                                    33        fied information. These are
      No PW Protected Scrn Svr                                                   33        considered “listed systems.”
No Individual Login or Password
                                                                                           Laptops connected to the
                                                                            31
                                                                                           NRC LAN are protected by
     Unrestricted Admin Rights                                       26
                                                                                           the LAN’s security controls.
        Unauthorized Software                  9
                                                                           A 2005 OIG report noted that
                                  Number of Laptops that Lacked Security Controls
                                                                           security controls for stand-
                                                                           alone personal computers
                         and laptops that are not used to process safeguards and/or classified informa-
                         tion are not adequate. Laptops that are not used to process safeguards and/or
                         classified information are not monitored for compliance with Executive Order
                         13103, Computer Software Piracy.

                         The audit objectives were to evaluate the effectiveness of NRC’s security policies
                         for laptop computers.

18
NRC OIG Semiannual Report
Audit Results:

Required security controls over laptops were lacking in headquarters and each of
two regional offices where OIG surveyed laptops during this audit. These controls
were lacking because the agency has not established clear policies and procedures
to implement and monitor security requirements, especially concerning virus
protection and operating system updates for all agency-owned laptop computers.
As a result, the agency’s laptops are susceptible to viruses and unauthorized use.
This could result in the inadvertent release of sensitive NRC information when
laptops are connected to the Internet, or it could pose a threat to the secure
operation of the agency’s network and information when laptops are connected
to the NRC LAN. (Addresses Management Challenge #6)

Inspector General’s Assessment of the Most Serious Management and
Performance Challenges Facing the Nuclear Regulatory Commission

OIG Strategic Goal: Corporate Management

The Reports Consolidation Act of 2000 requires the Inspector General of each
Federal agency to summarize annually what he or she considers to be the most
serious management and performance challenges facing the agency and to assess
the agency’s progress in addressing those challenges.

In accordance with the act, the NRC IG updated what he considers to be the most
serious management and performance challenges facing NRC. The IG evaluated
the overall work of the OIG, the OIG staff ’s general knowledge of agency opera-
tions, and other relevant information to develop and update his list of manage-
ment and performance challenges. As part of the evaluation, OIG staff sought
input from NRC’s Chairman, Commissioners, and management on their views
on what challenges the agency is facing and what efforts the agency has taken to
address previously identified management and performance challenges.

Assessment Results:

The IG identified eight challenges that he considers the most serious management
and performance challenges facing NRC. The challenges identified represent critical
areas or difficult tasks that warrant high-level NRC management attention.


                                                                                               19
                                                                      April 1, 2008 – September 30, 2008
                   This year’s list of challenges reflects several changes from last year’s list.

                   •	 Prior challenge 2, Appropriate handling of information, was combined with
                      prior challenge 7, Communication with external stakeholders throughout NRC
                      regulatory activities. The consolidation of these challenges resulted in the
                      following description for new challenge 2: Managing information to balance
                      security with openness and accountability, which captures the need for both
                      openness and protection of information.

                   •	 Prior challenge 3, Development and implementation of a risk-informed and
                      performance-based regulatory approach, was revised to the current challenge 3
                      language: Implementation of a risk-informed and performance-based regulatory
                      approach. This change reflects the relative maturity of NRC’s risk-informed
                      and performance-based regulatory programs and their advancement beyond
                      developmental efforts to implementation activities.

                   •	 Prior challenge 4, Ability to modify regulatory processes to meet a changing
                      environment, specifically the potential for a nuclear renaissance, was reworded
                      to more precisely focus on licensing issues. Current challenge 4 now states,
                      Ability to modify regulatory processes to meet a changing environment, to include
                      the licensing of new nuclear facilities. Waste issues, formerly covered in chal-
                      lenge 4, are reflected in a new challenge 5, Oversight of radiological waste.

                   •	 Prior challenge 5, Implementation of information technology, was reworded
                      to current challenge 6, Implementation of information technology and infor-
                      mation security measures to emphasize the need to ensure that information
                      technology resources use technological solutions for information security
                      when appropriate.

                   The chart that follows provides an overview of the eight most serious manage-
                   ment and performance challenges as of September 30, 2008.




20
NRC OIG Semiannual Report
                     Most Serious Management and Performance Challenges
                          Facing the Nuclear Regulatory Commission*
                                    as of September 30, 2008
                             (as identified by the Inspector General)

  Challenge 1	 Protection of nuclear material used for civilian purposes.

  Challenge 2	 Managing information to balance security with openness and accountability.

  Challenge 3	 Implementation of a risk-informed and performance-based regulatory approach.

  Challenge 4	 Ability to modify regulatory processes to meet a changing environment,
  	            to include the licensing of new nuclear facilities.

  Challenge 5	 Oversight of radiological waste.

  Challenge 6	 Implementation of information technology and information security measures.

  Challenge 7	 Administration of all aspects of financial management.

  Challenge 8	 Managing human capital.

  *The most serious management and performance challenges are not ranked in any order
  of importance.

The eight challenges contained in this report are distinct, yet interdependent
relative to the accomplishment of NRC’s mission.  For example, the challenge of
managing human capital affects all other management and performance chal-
lenges.

The agency’s continued progress in taking actions to address the challenges presented
should facilitate successfully achieving the agency’s mission and goals.




                                                                                                21
                                                                       April 1, 2008 – September 30, 2008
                   AUDITS IN PROGRESS
                   Audit of NRC’s Agreement State Program

                   OIG Strategic Goal: Safety

                   In accordance with Section 274 of the Atomic Energy Act, NRC relinquished to
                   35 States its authority to regulate certain byproduct material. The States must
                   demonstrate that their regulatory programs are compatible with NRC’s program
                   and adequate to protect public health and safety. The 35 States, which have
                   entered into an agreement assuming this regulatory authority from NRC, are
                   called Agreement States.

                   NRC and the Agreement States are responsible for ensuring the adequate protection
                   of public health and safety in the uses of Atomic Energy Act materials. Accord-
                   ingly, NRC and Agreement State programs must possess the requisite supporting
                   legislative authority, implementing organization structure and procedures, and
                   financial and human resources to effectively administer a radiation control program
                   that ensures adequate protection of public health and safety.

                   NRC’s policy is to evaluate the NRC regional materials programs and Agreement
                   State radiation control programs in an integrated manner, using common and
                   non-common performance indicators, to ensure that public health and safety is
                   adequately protected. As a result, NRC implemented the Integrated Materials
                   Performance Evaluation Program (IMPEP) to evaluate the regional materials and
                   Agreement State programs.  Using IMPEP, under normal circumstances, NRC
                   evaluates these programs every 4 years.

                   This audit will assess NRC’s oversight of the adequacy and effectiveness of Agree-
                   ment State programs. (Addresses Management Challenge #4)2




                   2
                     This and the management challenge references on the following pages are those identified for
                   Fiscal Year 2008.


22
NRC OIG Semiannual Report
Audit of the Committee to Review Generic Requirements’ Role in
Generic Backfit Reviews

OIG Strategic Goal: Safety

The Committee to Review Generic Requirements (CRGR) was established to
ensure that proposed generic backfits to be imposed on power reactors and/or
selected nuclear materials facilities licensed by the NRC are appropriately justified
based on backfit provisions of applicable NRC regulations and the Commission’s
backfit policy.  As an advisory committee to NRC’s Executive Director for Opera-
tions, the CRGR’s primary responsibilities are to recommend either approval or
disapproval of the staff proposals and to provide guidance and assistance to the
NRC program offices to help them implement the Commission’s backfit policy.

The CRGR provides an annual report to the Commission describing its previous
year of activities and decisions regarding the various topics that came before the
CRGR for review. As an additional responsibility, the CRGR is to review the
NRC’s administrative generic backfit controls to determine if the controls are
sufficient and staff guidance is comprehensive and clear.

The objectives of this audit are to determine if CRGR reviews adds value for
Executive Director for Operations decisionmaking purposes, and if the CRGR’s
function is still valid. (Addresses Management Challenges #1 and #4)

Audit of National Source Tracking System Development

OIG Strategic Goal: Security

Pursuant to the Energy Policy Act of 2005, NRC is required to establish a mandatory
tracking system for radiation sources in the United States.  The act requires that the
system be able to identify each radiation source by serial number or other unique
identifier; report within 7 days of any change of possession of a radiation source;
report within 24 hours of any loss of control of or accountability for a radiation
source; and provide for reporting through a secure Internet connection.

Additionally, the system is designed to be a national, comprehensive resource that
includes Category 1 and 2 sources held by NRC and Agreement State licensees
and by the Department of Energy. As a result, the National Source Tracking


                                                                                                 23
                                                                        April 1, 2008 – September 30, 2008
                   System is being developed for licensee reporting on sealed sources containing
                   nuclear materials. The system will provide online tracking of individual sources
                   throughout their lifecycle.

                   The audit objective is to assess the effectiveness of the system development effort
                   and assess the delays being encountered. (Addresses Management Challenge #1)

                                    Audit of NRC’s Occupant Emergency Program

                                    OIG Strategic Goal: Security

                                    Federal regulations require the development of an Occupant
                                    Emergency Plan (OEP) to reduce the possibility of personal injury
                                    and facility damage in the event of an emergency. OEPs describe
                                    the actions that occupants should take to ensure their safety if a
                                    fire or other emergency situation occurs. These plans reduce the
                                    threat to personnel, property, and other assets within the facility
                                    in the event of an incident inside or immediately surrounding
                                    a facility by providing facility-specific response procedures for
                                    occupants to follow.

                                    The Department of Homeland Security published Federal Conti-
                                    nuity Directive-1 outlining the requirements agencies must fulfill
                   in developing emergency response plans.  In addition, the U.S. General Services
                   Administration Occupant Emergency Program Guide was prepared to assist agen-
                   cies with their emergency planning.

                   The objective is to evaluate the extent to which NRC’s OEP complies with Federal
                   regulations. (Addresses Management Challenge #6)

                   Audit of NRC’s FY 2008 Financial Statements

                   OIG Strategic Goal: Corporate Management

                   Under the Chief Financial Officers Act and the Government Management and
                   Reform Act, OIG is required to audit the financial statements of the NRC. OIG
                   is auditing NRC’s financial statements in accordance with applicable auditing
                   standards.  The audit will express an opinion on the agency’s financial statements,


24
NRC OIG Semiannual Report
evaluate internal controls, review compliance with applicable laws and regula-
tions, review the performance measures for compliance with OMB guidance,
and review the controls in NRC’s computer systems that are significant to the
financial statements. In addition, OIG will measure the agency’s improvements
by assessing corrective action taken on prior audit findings. (Addresses Manage-
ment Challenge #7)

Audit of NRC’s Warehouse Operations

OIG Strategic Goal: Corporate Management

NRC policy requires the effective and efficient management of property, including
sufficient controls to deter or prevent loss through fraud, waste, or misuse. NRC
maintains two warehouses in separate locations from headquarters. These ware-
houses receive, store, and deliver property, equipment, and supplies needed for
NRC operations. The primary type of property stored in the warehouses is systems
furniture, used to construct office workstations. In addition, warehouse staff play
a key role in the abandonment of excess property.  As of July 2008, the warehouses
contained approximately 15,000 pieces of property with an acquisition cost of
approximately $4.2 million.

The audit objective is to determine whether NRC has established and implemented
an effective system of internal controls for maintaining accountability and control
of warehouse property. (Addresses Management Challenge #7)




                                                                                               25
                                                                      April 1, 2008 – September 30, 2008
INVESTIGATIONS
                   During this reporting period, OIG received 83 allegations, initiated 17 investigations,
                   and closed 31 cases. In addition, the OIG made 25 referrals to NRC management
                   and 8 to the Department of Justice.

                   INVESTIGATIVE CASE SUMMARIES
                   NRC Contractor Soliciting Employment From Applicant During Audit
                   Review

                   OIG Strategic Goal: Corporate Management

                   OIG completed an investigation into claims by an NRC applicant who had
                   submitted a request for a design certification for a new boiling water reactor.
                   The applicant alleged that during an NRC audit of the applicant’s software quality
                   assurance program, an NRC audit contractor attempted to solicit work from the
                   applicant.

                   OIG learned that during a meeting between the NRC, the audit contractor,
                   and applicant personnel, problems were identified with the applicant’s software
                   program and, as a result, the NRC audit contractor made critical comments
                   about the applicant’s program. The contractor provided the applicant personnel
                   with his business cards and recommended that they consult with experts in the
                   software modeling field to help with their software development. The applicant
                   personnel felt these comments were derogatory and inappropriate because the
                   NRC contractor was in a position to influence the NRC’s opinion of the software
                   program. Nevertheless, the applicant personnel acknowledged they were unsure
                   whether these comments were in fact an attempt to solicit work. In addition,
                   NRC staff who attended the meeting did not believe that the NRC contractor had
                   attempted to solicit work from applicant personnel.

                   OIG determined that the NRC audit contractor was critical of the software program
                   and that he provided the applicant personnel his business card and suggested
                   they consult with experts in the software modeling field to help with their soft-
                   ware development.  However, OIG also determined that these industry experts
                   referenced by the contractor are longstanding professors at major universities
                   and that there was no connection between the NRC audit contractor and the
                   industry experts he recommended to the applicant personnel during the audit.  
                   (Addresses Management Challenge #1)

26
NRC OIG Semiannual Report
False Claims of Small Business Entity Status By NRC Licensees

OIG Strategic Goal: Corporate Management

OIG completed two separate investigations involving NRC material licensees
that submitted false claims of small business entity status. Licensees that certify
themselves as small business entities are eligible to receive reduced material license
fees.

NRC requires companies seeking small business entity status to complete NRC
Form 526 as part of the qualification process. Form 526 states that companies
with 35 to 500 employees or between $350,000 and $6,000,000 in annual revenue
are eligible for a reduced material license fee of $2,300; companies with fewer than
35 employees or annual revenue of less than $350,000 are eligible for a reduced
material license fee of $500. NRC Form 526 also states that licensees that are
subsidiaries of larger entities, including foreign entities, do not qualify as small
business entities if the aggregate totals of the parent company are not within the
guidelines of NRC Form 526.

OIG determined that one company applied and received small business entity
status from the NRC for FY 2004 through FY 2007, which allowed the company
to pay a reduced material license fee of $2,300 during those years. However,
the company was a subsidiary of a much larger company that employed more
than 28,000 people, which made the company ineligible for the reduced fee.
The company applied for the small business entity status based on the number
of employees working for the subsidiary only. In addition, the company did
not receive sufficient guidance from the NRC concerning its eligibility for small
business entity status. The company reimbursed NRC $21,700 for the unpaid
portion of the full license fees.

OIG determined that another company was a subsidiary of an overseas company
with revenue and number of employees that exceeded the guidelines used to
certify small business entity status. The company certified its small business
entity status for FY 2006 and FY 2007, which allowed the company to pay a
reduced material license fee during those years even though, as a subsidiary, the
company was ineligible for the reduced material license fee. However, during
FY 2005, the company was eligible and received small business entity status.
The company’s status changed in early FY 2006 when it was acquired by a larger
company. Furthermore, the company did not receive sufficient guidance from
                                                                                                 27
                                                                        April 1, 2008 – September 30, 2008
                   the NRC concerning its eligibility for small business entity status. The company
                   reimbursed NRC $18,200 for the unpaid portion of the full license fee. (Addresses
                   Management Challenge #6)

                   NRC Staff Review of License Renewal Applications

                   OIG Strategic Goal: Safety

                   OIG completed an investigation into concerns raised regarding the extent of the
                   NRC staff review of license renewal applications. These concerns were raised by
                   an OIG audit report3 issued in September 2007. The OIG audit report identified
                   cases where documents prepared by NRC contained nearly word-for-word repeti-
                   tion of a licensee’s renewal application text without attribution to the applicant.  
                   The audit noted that this practice made it difficult for a reader to distinguish
                   between information submitted by the applicant and information prepared by
                   NRC to support its independent assessment and conclusion. The audit noted
                   that this reporting technique could cast doubt as to exactly what NRC did to
                   independently review an applicant’s license renewal application.

                   To address the concerns raised by the audit, OIG investigated the NRC staff
                   preparation of license renewal Safety Evaluation Reports (SER) for four nuclear
                   plants. The OIG review included interviews and reviews of documents relevant
                   to NRC’s assessment of license renewal applications for the four nuclear plants.
                   OIG’s review focused on two Aging Management Programs (AMP) for each plant.
                   AMPs demonstrate that the effects of aging will be adequately managed by the
                   licensee so that the intended function(s) will be maintained consistent with the
                   current licensing basis for the period of extended operation.

                   The NRC safety review process includes technical reviews performed in head-
                   quarters and onsite audits. Individual staff from Office of Nuclear Reactor Regu-
                   lation (NRR) engineering divisions in headquarters conduct technical reviews of
                   plant-specific AMPs and other unresolved or emergent issues. These individuals
                   review specific sections of the renewal application based on their area of exper-
                   tise. Teams from the Division of License Renewal, NRR, perform onsite audits
                   of supporting documentation for AMPs. The results of these NRC staff reviews
                   are documented in a SER.



28
                   3
                       Audit of NRC’s License Renewal Program, OIG-07-A-15, September 6, 2007



NRC OIG Semiannual Report
OIG determined that professional judgment was used to establish the extent of the
staff ’s review of applicant documents and the number and nature of questions posed
by NRC to the applicant staff. NRC reviewers prepared working papers, including
checklists, during the audits that reflected the specific documents reviewed. The
NRR audit team working papers included notes from these document reviews
and additional information supplied by applicant staff. The reviewers used these
working papers during and following the onsite audit to prepare their formal
input for an audit report, which was used as input to the SER.

NRC work hour data reviewed by OIG indicated that significant numbers of hours
were used by the NRC staff in the review of these four license renewal applications.
The NRR audit reports prepared by NRR staff also listed a number of applicant
documents that were reviewed during these license renewal reviews.

OIG determined that SERs are summary in nature as are the NRR audit reports.
These audit reports contain the documented description of the NRC on site review
of AMPs and provide support for the SERs. However, OIG learned that the staff
does not preserve copies of all applicant documents reviewed during the onsite
audits, and the staff does not preserve their own audit working papers as perma-
nent records which made it difficult to verify specific details of the agency’s onsite
review activities. (Addresses Management Challenges #3 and #4)

NRC’s Handling of Security Related Allegation

OIG Strategic Goal: Security

OIG completed an Event Inquiry in response to concerns that NRC staff mishandled
a security related allegation pertaining to inattentive security officers at the Peach
Bottom Atomic Power Station (Peach Bottom). This inquiry was undertaken in
response to information provided to OIG in a September 2007 letter from the
Project on Government Oversight (POGO) describing a pattern of on-duty secu-
rity officer fatigue and inattentiveness at Peach Bottom. Peach Bottom is owned
by Exelon, which holds the NRC license for the plant.  At the time of alleged
inattentiveness by security officers, The Wackenhut Corporation provided the
security services for the plant.

In support of its concern, POGO provided OIG a copy of an undated letter post-
marked March 20, 2007, that had been given to POGO by a former security manager

                                                                                                 29
                                                                        April 1, 2008 – September 30, 2008
                   for The Wackenhut Corporation. The March letter claimed that Peach Bottom
                   security officers were fatigued from working excessive overtime or 12-hour shifts
                   and would cover for each other so they could take naps of 10 minutes or more
                   during shifts. The letter also indicated that (1) past efforts by NRC to identify
                   personnel sleeping on duty had failed, (2) NRC and Exelon were aware that officers
                   were sleeping while on duty, and (3) security officers feared Exelon management
                   retaliation for raising safety concerns. This letter had been provided to the NRC
                   resident inspector at Peach Bottom in March 2007, and at that time the concerns
                   it relayed were evaluated under NRC’s allegation management program by the
                   NRC’s Region I office, which provides regulatory oversight for Peach Bottom.

                   OIG learned that in handling this allegation, Region I opted to refer the concerns
                   to Exelon in a April 30, 2007, letter for evaluation.  Exelon’s review, documented
                   in a May 30, 2007, assessment report, did not substantiate the concerns. Region I
                   concurred with Exelon’s assessment and in August 2007 closed the Peach Bottom
                   allegation file as unsubstantiated.

                   In September 2007, just prior to OIG’s receipt of POGO’s letter, the WCBS news
                   station in New York provided a videotape to NRC Region I that depicted inatten-
                   tive security officers on duty at Peach Bottom. The videotape was broadcast on
                   national television and resulted in considerable congressional and public concern.
                   NRC did not refer this allegation to Exelon for review, but instead convened a
                   special NRC inspection team to review the concern, which was substantiated.

                   OIG determined that Region I was inconsistent in its assessment of the safety
                   significance of the two allegations, made within 6 months of each other, conveying
                   similar concerns about inattentive security officers at Peach Bottom. OIG also
                   determined that in referring the Peach Bottom security concerns to Exelon, Region
                   I staff did not follow NRC guidance that allegations against licensee management
                   should not be referred. Two of the three concerns – officers feared retaliation
                   from Exelon management for raising safety concerns and Exelon management
                   was aware that officers were inattentive on duty but had not taken proper actions
                   to address the inattentiveness – fall into this category.

                   OIG also determined that, in conjunction with referring the March 2007 concerns
                   to Exelon for evaluation, Region I could have taken the following steps:


30
NRC OIG Semiannual Report
•	 Contacted the former Wackenhut security manager to obtain additional
   information because the Region I staff believed the alleger’s letter lacked
   specificity.

•	 Provided more detailed information to Exelon pertaining to the March 2007
   security concerns.  Specifically, in its April 30, 2007, letter to Exelon, Region
   I could have informed Exelon that security officers were coordinating with
   each other or waking each other up to respond to radio checks. They also
   could have conveyed the alleger’s suggestion to monitor the plant personnel
   staging areas.

•	 Provided the March 2007 concerns to the NRC resident inspectors assigned
   to Peach Bottom for increased monitoring of security officer activities.

•	 Tasked the Region I security inspectors to look into the matter during their
   scheduled security inspection conducted at Peach Bottom from April 30 to
   May 4, 2007.

Furthermore, OIG determined that NRC staff did not probe or attempt to verify the
information provided by Exelon in its May 30, 2007, assessment report. (Addresses
Management Challenge #1)

Improper Direction by NRC Staff During a Force-
on-Force Exercise at Sequoyah

OIG Strategic Goal: Security

OIG conducted an investigation into concerns that NRC
staff may have assisted or redirected a composite adversary
force (CAF) during a force-on-force (FOF) security training
exercise at Sequoyah Nuclear Power Plant (Sequoyah), which
affected the outcome of the exercise.  FOF exercises are used
by NRC to evaluate security programs at nuclear power
plants.  During an FOF exercise, the CAF, which is a mock Force-on-force security training exercise.
adversary force, is used to infiltrate a facility and then simu-
late damaging key safety systems and components that protect the nuclear power
plant. The plant’s security force, in turn, seeks to stop the CAF from damaging


                                                                                                31
                                                                       April 1, 2008 – September 30, 2008
                   the plant’s equipment. A controller is assigned to each CAF member to ensure
                   that the exercise scenarios are conducted safely and that all players are following
                   the rules of engagement.

                   OIG learned that an NRC staff member accompanied the CAF during the FOF
                   exercise at Sequoyah from the time the CAF entered the plant’s perimeter until
                   the completion of the exercise.  After CAF members reached the plant’s auxiliary
                   building, they breached the wrong door. According to the lead CAF controller,
                   CAF members overheard a conversation he had with the NRC staff member
                   regarding the fact that the wrong door had been breached, which allowed the
                   CAF to use this information to successfully complete the mission.

                   OIG determined that CAF members did not improperly receive any help or guid-
                   ance from any NRC staff member. Further, the CAF members did not witness
                   any gestures by any NRC staff member that would have unintentionally given
                   them information to successfully complete the mission, nor did they overhear any
                   conversation between any NRC staff member and the lead CAF controller. Rather,
                   CAF members determined on their own that they had breached the wrong door
                   and that their only other option was to breach the one remaining door within
                   the room. (Addresses Management Challenge #1)




32
NRC OIG Semiannual Report
STATISTICAL SUMMARY OF
OIG ACCOMPLISHMENTS
INVESTIGATIVE STATISTICS
Source of Allegations — April 1, 2008, through September 30, 2008

                          NRC Employee                                               15
                      NRC Management                                         12
            Other Government Agency                    2
                                Intervenor             2
                           General Public                                                 17
               OIG Investigation/Audit                                               15
                     Regulated Industry                    3
                             Anonymous                                    11
                           Congressional                   3
                                     Media                 3


            Allegations resulting from Hotline calls: 25                             Total: 83


Disposition of Allegations — April 1, 2008, through September 30, 2008

                                      Total                                               83
                Closed Administratively                              33
          Referred for OIG Investigation                   17
  Referred to NRC Management and Staff                          25
            Referred to External Agency        1
              Pending Review or Action          3
             Correlated to Existing Case           4




                                                                                                   33
                                                                          April 1, 2008 – September 30, 2008
                   Status of Investigations

                   DOJ Referrals . .................................................................................................... 8
                   DOJ Pending (from a prior period).................................................................. 1
                   DOJ Declinations ............................................................................................... 7
                   DOJ Accepted ..................................................................................................... 1
                   NRC Administrative Actions:
                   	 Terminations and Resignations ................................................................. 1
                   	 Suspensions and Demotions ...................................................................... 2
                   	 Counseling . .................................................................................................. 1
                   	 Recoveries ..........................................................................................$39,900


                   Summary of Investigations
                   Classification of 		           Opened 	 Closed 	 Cases In
                   Investigations	     Carryover	 Cases	   Cases	 Progress

                   Conflict of Interest	                      1	                                     0	              0	              1
                   Internal Fraud	                            1	                                     0	              1	              0
                   External Fraud	                            6	                                     1	              3	              4
                   	False Statements	                         0	                                     2	              1	              1
                    	Misuse of Government Property	           5	                                     3	              6	              2
                     	Employee Misconduct	                    3	                                     6	              2	              7
                      	Management Misconduct	                 3	                                     1	              3	              1
                       Mishandling of Technical Allegations/
                       		 Miscellaneous	                     12	                                    3	              7	              8
                       Proactive Initiatives	                 5	                                    1	              4	              2
                       Project	                              10	                                    0	              3	              7
                       Event Inquiries	                       2	                                    0	              1	              1
                       			 Total Investigations	             48	                                   17	             31	             34




34
NRC OIG Semiannual Report
AUDIT LISTINGS
Internal Program Audit and Special Evaluation Reports

Date	         Title	                                          Audit Number

09/30/2008	   Inspector General’s Assessment of the Most 	    OIG-08-A-20
	             Serious Management and Performance
	             Challenges Facing the Nuclear
	             Regulatory Commission

09/30/2008	   Audit of NRC’s Laptop Management 	              OIG-08-A-19

09/30/2008	   Independent Evaluation of NRC’s
	             Implementation of the Federal Information
	             Security Management Act for Fiscal Year 2008	   OIG-08-A-18

09/30/2008	   Audit of NRC’s Enforcement Program	             OIG-08-A-17

09/15/2008	   Audit of NRC’s Premium Class Travel 	           OIG-08-A-16

09/09/2008	   Memorandum Report: Audit of the
	             Nuclear Regulatory Commission’s Use of
	             Reemployed Annuitants	                          OIG-08-A-15

07/18/2008	   Audit of NRC’s Control Over the Process
	             for Eliminating Management Directives	          OIG-08-A-14

07/16/2008	   Evaluation of NRC’s Training and
	             Development Program	                            OIG-08-A-13

07/15/2008	   Audit of the Nuclear Regulatory
	             Commission’s USAID-Funded Activities	           OIG-08-A-12

06/17/2008	   Audit of NRC’s Accounting and Control
	             Over Time and Labor Reporting	                  OIG-08-A-11

05/21/2008	   Audit of NRC Continuity of Operations Plan	     OIG-08-A-10


                                                                                         35
                                                                April 1, 2008 – September 30, 2008
                   Contract Audit Reports

                   OIG	          Contractor/	              Questioned	   Unsupported
                   Issue Date	   Contract Number	            Costs	         Costs

                   06/25/08	     Beckman and Associates	       0	             0
                   	             NRC-03-03-037

                   06/25/08	     Hummer Whole Health 	      $53,004	          0
                   	             Management	
                   	             NRC-38-05-366




36
NRC OIG Semiannual Report
AUDIT RESOLUTION ACTIVITIES
TABLE I
OIG Reports Containing Questioned Costs4
April 1, 2008, through September 30, 2008
	                                            	                                               Questioned	             Unsupported
	                                        Number of	                                             Costs	                  Costs
Reports	                                  Reports	                                            (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           0	                         0	                      0

B.	    Which were issued during the
       reporting period	                                                  1	                    $53,004	                     0

	      Subtotal (A + B)	                                                  1	                    $53,004	                     0

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            0	                         0	                      0

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  1	                    $53,004	                     0

E.	    For which no management decision was
       made within 6 months of issuance	                                  0	                         0	                      0

4
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.




                                                                                                                              37
                                                                                             April 1, 2008 – September 30, 2008
          TABLE II
          OIG Reports Issued with Recommendations That Funds Be Put to Better Use5

          	                                                                    Number of	            Dollar Value
          Reports	                                                              Reports	              of Funds

          A.	    For which no management decision	 0	 0
                 had been made by the commencement
                 of the reporting period			

          B.	    Which were issued during the 	 1	                                                      $104,000
                 reporting period		

          C.	    For which a management decision was	
                 made during the reporting period:		

          	          (i) 	 dollar value of recommendations	                          0	                      0
                 	         that were agreed to by management

          	       (ii) 	dollar value of recommendations 	                            0	                      0
                  	 that were not agreed to by management

          D.	    For which no management decision had	                               1	                 $104,000
                 been made by the end of the reporting
                 period

          E.	    For which no management decision was	 0	 0
                 made within 6 months of issuance				



          5
           A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
          used more efficiently if NRC management took actions to implement and complete the recommendation,
          including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
          interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
          recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
          unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
          specifically identified.


38
NRC OIG Semiannual Report
TABLE III
Significant Recommendations Described in Previous Semiannual Reports on
Which Corrective Action Has Not Been Completed

Date	       Report Title	                                                    Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	              OIG-03-A-15
	           Nuclear Materials

	           Recommendation 1: Conduct periodic inspections to
	           verify that material licensees comply with material
	           control and accountability (MC&A) requirements,
	           including, but not limited to, visual inspections of
	           licensees’ special nuclear material (SNM) inventories
	           and validation of reported information.		

03/16/06	   Audit of the NRC’s Byproduct Materials License 	              OIG-06-A-11
	           Application and Review Process

	           Recommendation 2: Modify the license application and
	           review process to mitigate the risks identified in the
	           vulnerability assessment.

09/26/06	   Evaluation of NRC’s Use of Probabilistic Risk Assessment 	    OIG-06-A-24
	           in Regulating the Commercial Nuclear Power Industry

	           Recommendation 3: Conduct a full verification and
	           validation of SAPHIRE version 7.2 and GEM.




                                                                                           39
                                                                  April 1, 2008 – September 30, 2008
ABBREVIATIONS AND ACRONYMS
                   AMP	     Aging Management Programs
                   CAF	     composite adversary force
                   CRGR	    Committee to Review Generic Requirements
                   FISMA	   Federal Information Security Management Act
                   FLETC	   Federal Law Enforcement Training Center
                   FOF	     force-on-force
                   FSA	     Freedom Support Act
                   FTR	     Federal Travel Requlations
                   FY	      Fiscal Year
                   GIP	     Generic Issues Program
                   HR	      Office of Human Resources (NRC)
                   IAM	     Issue Area Monitor
                   ICOD	    Infrastructure and Computer Operating Division (NRC)
                   IG	      Inspector General
                   IMPEP	   Integrated Materials Performance Evaluation Program
                   IT	      information technology
                   LAN	     local area network
                   MD	      Management Directive
                   NRC	     U.S. Nuclear Regulatory Commission
                   NRR	     Office of Nuclear Reactor Regulation (NRC)
                   OEP	     Occupant Emergency Plan
                   OIS	     Office of Information Services (NRC)
                   OIG	     Office of the Inspector General (NRC)
                   OMB	     Office of Management and Budget
                   POGO	    Project on Government Oversight
                   SER	     Safety Evaluation Reports
                   USAID	   U.S. Agency for International Development

40
NRC OIG Semiannual Report
                               REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (1988), specifies reporting require-
ments for semiannual reports.  This index cross-references those requirements
to the applicable pages where they are fulfilled in this report.


CITATION	               REPORTING REQUIREMENTS	                                                  PAGE

Section 4(a)(2)	        Review of Legislation and Regulations . ...............................5-7

Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .....10-21, 26-32

Section 5(a)(2) 	 Recommendations for Corrective Action ........................10-21

Section 5(a)(3) 	 Prior Significant Recommendations
	                 Not Yet Completed . ................................................................. 39

Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 34

Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 35

Section 5(a)(7) 	 Summary of Significant Reports ...........................10-21, 26-32

Section 5(a)(8) 	 Audit Reports — Questioned Costs ..................................... 37

Section 5(a)(9)  	 Audit Reports — Funds Put to Better Use ............................ 38

Section 5(a)(10) 	 Audit Reports Issued Before Commencement
	                  of the Reporting Period for Which No
	                  Management Decision Has Been Made ........................... None

Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

Section 5(a)(12) 	 Significant Management Decisions With
	                  Which OIG Disagreed ........................................................ None




                                                                                                                  41
                                                                                         April 1, 2008 – September 30, 2008
42                          Transport of Dry Cask Spent Fuel Storage Container

NRC OIG Semiannual Report
